       SENSITIVE BUT UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




            Report of Inspection

  Broadcasting Board of
Governors’ Operations in
      Hong Kong
Report Number ISP-IB-05-64, August 2005




                             IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                            TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
PROGRAM MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
           VOA News Bureau Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
           RFA News Bureau Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
           Regional Technical Monitoring Office Management . . . . . . . . . . . . . . . . . . 8
PROGRAM PERFORMANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
           Voice of America News Bureau Performance . . . . . . . . . . . . . . . . . . . . . . . 9
           Radio Free Asia News Bureau Performance . . . . . . . . . . . . . . . . . . . . . . . . 10
           Regional Technical Monitoring Office Performance . . . . . . . . . . . . . . . . . 11
MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
           Voice of America News Bureau Management Controls . . . . . . . . . . . . . . 13
           Radio Free Asia News Bureau Management Controls . . . . . . . . . . . . . . . . 14
           Regional Technical Monitoring Office Management Controls . . . . . . . . . 15
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                             KEY JUDGMENTS

    •    The Voice of America (VOA) Hong Kong News Bureau supervises VOA
         English correspondents in all of Asia including Jakarta, Seoul, Beijing,
         Islamabad, and New Delhi. When the situation requires it, the Hong Kong
         bureau chief is also responsible for assigning global coverage, editing, and
         producing scripts on Iraq, the Middle East, Europe, and Africa, as needed,
         that are put out on the world wire with the Hong Kong bureau chief as the
         last editor for VOA news. The bureau carries out its responsibilities well.
         The Office of Inspector General (OIG) believes it is appropriate, produc-
         tive, and effective for VOA to maintain two senior editors in the Hong
         Kong News Bureau to perform their current duties and those presented in
         the VOA Director's new initiative for Central News involving the Hong
         Kong News Bureau.

    •    In a phenomenon not shared by the VOA News Bureau in Hong Kong, the
         Radio Free Asia (RFA) News Bureau has been getting walk-ins from the
         mainland. RFA needs to provide clear guidance to the bureau on handling
         these cases and provide a modest representational budget to be tapped in
         dealing with these people so as not to impose a hardship on the generosity
         of staff.

    •    An employee from the Regional Technical Monitoring Office (TMO) in
         Hong Kong, along with his counterpart at the Regional TMO in New Delhi,
         both locally employed staff, either assist or lead in coordinating, and in
         effect negotiating, radio frequency use at the annual High Frequency
         Coordination Conference (HFCC) for Asia held under the auspices of the
         Asia Pacific Broadcast Union (ABU). OIG found that the use of TMO
         Foreign Service nationals (FSNs) at the ABU-HFCC is an acceptable
         intergovernmental process that helps to avoid anarchy on high frequency
         radio bands under the regulation of the International Telecommunications
         Union (ITU).

    Louis McCall, Coordinator for International Broadcasting and Public Diplo-
macy Evaluations, Office of Inspections, conducted the inspection in accordance
with quality standards for inspections prescribed by the President's Council on
Integrity and Efficiency.


OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   1 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED




2 .     OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                                       CONTEXT

     The former British crown colony of Hong Kong reverted to Chinese sover-
eignty as a Special Administrative Region under the People's Republic of China in
1997 after nearly 157 years of British rule. As Hong Kong, Special Administrative
Region China, the enclave continues to enjoy substantial democratic freedoms and
a close relationship with the United States. Hong Kong has a population of 6.8
million, an educated citizenry, a vibrant economy, and has maintained its position
as a hub of trade and transportation in the region. In previous years it was more
difficult for Chinese citizens of Mainland China to visit Hong Kong. This has
progressively changed. More and more Chinese from the mainland have the ability
to make trips to Hong Kong as individuals, rather than as part of a group that
could be more easily monitored. During the inspection, the government of China
announced a new policy effective March 1, 2005. People from a particular city
near Beijing and another one in Szechwan Province, with up to 40 million in
combined population, would be able to make individual trips to Hong Kong.
Altogether, over 100 million Mainland Chinese can now avail themselves of these
trips to Hong Kong.

     The Hong Kong Basic Law, in Article 23, requires the Hong Kong Special
Administrative Region to enact laws on its own to prohibit any act of treason,
secession, sedition, or subversion. However, to date, Article 23 has not been
implemented. On September 24, 2002, the government released its proposals for
antisubversion legislation. Article 23 was the basis for the proposed law and
preexisted the antisubversion proposal. Article 23 requires the government to enact
an antitreason law, but it does not set limits on speech. There were some concerns
that an antitreason law would limit or prohibit freedom of speech. To date, no
antitreason legislation has been passed in Hong Kong. OIG found no indication
that BBG establishments in Hong Kong practiced self-censoring because of Article
23 nor was there concern for the continuity of their operations because of Article
23. In this context the BBG operates three establishments in Hong Kong, a VOA
News Bureau, an RFA News Bureau, and an IBB Regional TMO. These offices
have separate functions and do not interact. The VOA News Bureau is a regional
bureau. To a lesser extent, the RFA News Bureau is also a regional bureau. The
Hong Kong TMO is also a regional office and is one of six such offices worldwide.
The others are located in Accra, Helsinki, Manama, New Delhi, and Vienna.



OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   3 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



          In part, the BBG operations in Hong Kong are platforms for coverage of
      Mainland China. In reviewing the access of VOA and RFA journalists and their
      products to China there is a clear imbalance. On the one hand, China has dozens
      of correspondents in the United States and its broadcasts to the American people
      are unhindered. Alternatively, both RFA and VOA broadcasts experience jamming,
      the access of journalists is limited, and the number of such journalists is small.1
      The Chinese Branch of the VOA Hong Kong News Bureau is actively trying to get
      a visa to set up a Shanghai office. VOA English would also like to have a slot
      there.




      OIG's Inspection of the Broadcasting Board of Governors' Operations in China, IBO-I-04-14, September 2004.
      1




4 .                      OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                  PROGRAM MANAGEMENT



VOA NEWS BUREAU MANAGEMENT
    VOA's Hong Kong News Bureau is VOA's only remaining truly regional news
bureau outside of Washington in that the overall bureau chief is the supervisor for
VOA English correspondents in all of Asia including Jakarta, Seoul, Beijing,
Islamabad, and New Delhi. The bureau chief serves as their reviewing officer for
purposes of their annual performance evaluations while the deputy in the office
actually rates those correspondents. However, the management of the bureau is
divided in two parts in some respects because the bureau chief functions only as
the administrator for the Chinese Branch portion of the office. In 1998 the VOA
English News Bureau and the VOA Chinese Bureau were merged into one office.
The VOA Mandarin and Cantonese language services in the office are supervised
directly from VOA's China Division in Washington. There is coordination between
the VOA English reporters and the Chinese Branch reporters of the bureau, when
necessary. They also provide comprehensive support to other bureaus in Asia.
Originally, management of the combined office was to rotate bureau chiefs be-
tween the English and Chinese bureaus. That has not happened.

    Although both the VOA English bureau chief and deputy are experienced
correspondents, they function as pure managers and editors. The bureau chief
gives assignments to the VOA English correspondents in the region and those
reports are edited in the Hong Kong bureau. When pressed by OIG as to why the
jobs of the bureau chief and deputy could not be done from Washington since
almost no reporting was involved, the bureau chief gave the following reasons:

     1. Given the 12-hour time differential, natural human biorhythms make it
difficult for Washington based staff to do the same jobs;

    2. It is hard to get visas and be able to come out to the region on short notice;

    3. Those that would come would be jet-lagged after their arrival, and the story
they came for might even be old news by the time they arrive; and

    4. One needs to be in the region.


OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   5 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



          In April 2005, VOA Director David Jackson further expanded the management
      role of the bureau chief and deputy. He announced that VOA proposes to hire
      writers in Hong Kong to produce Central News stories and that the two senior
      VOA editors already in Hong Kong (that is, the bureau chief and deputy) would
      supervise them. This would enable VOA to create an overnight English language
      web site staff that would permit VOA to keep its web site up to date 24 hours a
      day, seven days a week, a capability not currently available. The Director cited
      chronic staffing difficulties on the overnight shift in the Washington newsroom as
      one of the drivers behind this initiative. This would allow current Central News
      overnight staff to move to fill current vacancies in the Washington day and evening
      shifts, but two senior editors would remain on the Washington overnight desk to
      provide final U.S.-based oversight and editing of the Hong Kong Central News
      output, as well as facilitation between the Hong Kong News Bureau and VOA's
      language services broadcasting during those hours.

           If necessary, OIG believes the Hong Kong bureau chief and deputy could also
      stand in to effectively perform the duties of the two senior Washington editors on
      the overnight desk from Hong Kong. In fact, during the inspection, the Hong Kong
      bureau chief advised OIG that responsibility had already been expanded occasion-
      ally to include global coverage for about a year. For various periods, the Central
      News overnight desk was not staffed, leaving the Hong Kong bureau chief respon-
      sible for assigning global coverage, editing, and producing scripts that are put out
      on the world news wire with the Hong Kong bureau chief as the last editor for
      news between 11:00 a.m. and 6:00 p.m. Hong Kong time.

         This included editing and assigning stories on Iraq, the Middle East, Europe,
      and Africa as needed. Given the above, OIG believes it is appropriate, productive,
      and effective for VOA to maintain two senior editors in the Hong Kong News
      Bureau to perform their current duties and those presented in the VOA Director's
      new initiative for Central News involving the Hong Kong News Bureau.



      RFA NEWS BUREAU MANAGEMENT
          The chief correspondent for the RFA News Bureau in Hong Kong has served
      in that position since 1997 and does his job well. He presides over a bureau, with a
      FY 2005 budget of $631,000 that has two language services - Mandarin and
      Cantonese. He only does administrative work for the Cantonese service, but
      provides full service for the Mandarin service.




6 .                 OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    A concern of the chief correspondent and of staff interviewed by OIG was
how to manage the walk-ins that come to the office from the Mainland. This is a
phenomenon not shared by the VOA News Bureau in Hong Kong. According to
the chief correspondent, for almost two years the bureau has been getting walk-ins
from the mainland. Some have been previously interviewed by telephone and use
their trip to Hong Kong to introduce themselves in person. Some have refused to
identify themselves and some have been refused entry, in part out of concern for
the safety and security of the bureau, which has no waiting room or reception area.
The chief correspondent has tried to meet some of these unscheduled visitors in
the lobby of the building or at a nearby coffee shop. The upside is that some of
these visitors relate stories that can be confirmed and then turned into news re-
ports. In that sense, walk-ins provide an opportunity for first hand information
given the difficulty RFA has in gaining access to Mainland China. The walk-ins
also give valuable feedback on the broadcast times when the RFA signal is heard
clearest in their provinces. The downside is that the staff of the bureau are leery
about the true identity and purpose of some of the visitors and don't want to meet
with them. Dealing with walk-ins is also disruptive. However, OIG determined
that the overall number of such cases is low, at about 10 instances per month.
Given the relatively low number of instances, even with a possible increase as
China continues to ease travel of its citizens to Hong Kong, OIG does not believe
it would be necessary or cost effective to lease additional office space to use as a
separate reception and interview area. However, RFA does need to provide clear
guidance to the bureau on handling these cases and provide a modest representa-
tional budget for dealing with these people so as not to impose a hardship on the
generosity of staff.


   Recommendation 1: Radio Free Asia should provide policy and procedural
   guidance to its Hong Kong bureau on handling walk-ins and make provisions
   to fund expenses staff may be expected to undertake on behalf of Radio Free
   Asia in the implementation of such guidance. (Action: RFA)




    Subsequent to the inspection, RFA notified OIG that it would implement
policy and procedures to comply with this recommendation. RFA added that it
was exploring a low-cost renovation that would allow for security access only into
the work area of the bureau.




OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   7 .

                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



      REGIONAL TECHNICAL MONITORING OFFICE MANAGEMENT
          The regional TMO in Hong Kong has two locally employed staff. The newest
      employee was only hired in February 2005 and replaces an employee that died in
      September 2004. The senior supervisory monitor, who has been with the TMO
      since March 26, 1979, is knowledgeable, experienced, and confident. He was
      formerly the assistant to an American supervisor. The American supervisor left in
      1997 when IBB decided that it would use local staff to run the TMOs. The current
      LES supervisor assumed that title in 1998. The Hong Kong region of the TMO
      includes the Far East, South East Asia, and the Pacific Ocean. The TMO has
      contract monitors in Perth, Auckland, Manila, and Kobe. There are also 19 remote
      monitoring systems in the region: China (4), Seoul, Kobe, Jakarta, Manila,
      Singapore, Phnom Penh, Bangkok, Guam, Vientiane, Ho Chi Minh City, Hanoi,
      Melbourne, Darwin, Wellington, and Hong Kong. There is a proposal to set up an
      additional remote monitoring site in Burma.




8 .                 OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                 PROGRAM PERFORMANCE



VOICE OF AMERICA NEWS BUREAU PERFORMANCE
     Prior to the arrival of the current bureau chief, there was only one VOA En-
glish editor, and the office only worked five days a week. The current bureau chief
initiated a seven-day a week workweek. According to the bureau chief, VOA Asia
region stories have increased three fold, and they are doing television or video
journalism now as well. OIG examined a 2001 report on increased production that
was the basis for getting more resources for the bureau. However, OIG did not
verify the threefold increase in production claim because it would have been too
time consuming to do so during the inspection. Later statistics were available that
confirmed the additional improvement in the quantity of scripts produced. In
addition, on the quality side, the Hong Kong News Bureau, in comparison with
VOA Washington, has a higher percentage of actualities, that is, sound bites,
accompanying its scripts. Nevertheless, the bureau chief is proud that she has
greatly expanded the bureau's production with a smaller budget than that of her
predecessor. The total budget for the VOA Hong Kong News Bureau is $1.1
million. Also, impressive were the production and quality gains achieved under the
bureau chief prior to getting additional staff, including additional technical support
staff.

     The bureau's technical staff of two broadcast technicians are very active in the
region and in Hong Kong under the leadership of the bureau chief. They closed
out the VOA Tokyo News Bureau in March 2004, but opened news bureaus in
Seoul and Jakarta. The technical operations in Seoul were set up by Hong Kong
technical staff in January 2005. This included installing equipment and an audio
recording studio and getting the correspondent set up. The Hong Kong bureau's
technical staff helped to do a technical install for the VOA Jakarta News Bureau
that opened in April 2005. Hong Kong's technical staff will be the first line of
technical support for Jakarta.




OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   9 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           The technical staff of the VOA Hong Kong News Bureau have played an
       important role in facilitating the ability of the VOA Asia bureaus to do more in the
       area of video journalism. They put a television studio in the Hong Kong bureau
       early in 2004. Following the inspection, the technical staff went to Jakarta and
       installed a TV studio there too, like the one in Hong Kong, in addition to an audio
       studio there. The new VOA Jakarta News Bureau will eventually have a staff of
       about nine persons.

           The technical staff supports other news bureaus in the region on all electronic
       equipment. Other bureaus in the region call the Hong Kong technical staff for
       help, but no one maintains a log of the help calls and solutions provided. The
       technical staff will first telephone another bureau in the region and try to solve
       problems that way. VOA Washington approves and funds, separately from the
       Hong Kong bureau's budget, trips to the other bureaus for technical support.

           According to the VOA Director for the East Asia and Pacific Division, coop-
       eration with Embassy Beijing and Consulate General Hong Kong by the Hong
       Kong News Bureau is very high. He described it as a "close constructive relation-
       ship." He added, "there is no interference with our editorial content," which he
       described as being very proactive.



       RADIO FREE ASIA NEWS BUREAU PERFORMANCE
           The RFA News Bureau in Hong Kong, which opened in 1996, shortly after the
       incorporation of RFA, interacts with Consulate General Hong Kong in the same
       way other private news organizations do in order to get interviews or to gain access
       to a notable visitor or to U.S. warships that visit Hong Kong. The bureau staff
       attend regular press gatherings and conferences hosted by the consulate. According
       to the RFA President, the consulate has been accessible and helpful.

           The RFA Hong Kong News Bureau has developed over 100 regular mainland
       interviewees. Some cases of natural and human disasters in China, for example
       floods and mine explosions, have been reported first by RFA. This has had the
       effect of forcing the Chinese media to become more open and to respond more
       quickly with information on these kinds of tragedies. The RFA Hong Kong News
       Bureau is a vital alternative window on China and provides Mandarin and
       Cantonese news reports on China to China. A senior RFA official in Washington
       told OIG that the stringer-reporters working with the Hong Kong bureau are very
       good. The bureau also uses commentators such as the commentator for its labor



10 .                 OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



program. To ensure American editorial oversight, prerecorded commentaries are
sent to RFA's Washington headquarters where editorial managers make the final
decision on whether or not to broadcast their content.



REGIONAL TECHNICAL MONITORING OFFICE PERFORMANCE
    The Senior Supervisory Monitor in Hong Kong and the Regional TMO in New
Delhi, both local hires, either assist or lead in coordinating, and in effect negotiat-
ing, radio frequency use at the annual HFCC for Asia under the auspices of the
ABU headquartered in Kuala Lumpur. According to the Senior Supervisory Moni-
tor in Hong Kong, he has represented the United States since 1998. During the
Washington survey phase of the inspection, IBB's Deputy for Engineering Opera-
tions and the IBB supervisor for TMOs advised OIG that its FSN technicians were
negotiating radio spectrum frequencies at HFCCs. No U.S. embassy Environment,
Science, and Technology officer or representative from the Department's Bureau of
Economic and Business Affairs, International Communications and Information
Policy (EB/CIP) attends. However, sometimes IBB Washington sends someone
from the IBB Frequency Management Office to round out the delegation and
provide an American citizen presence. Most recently, the Hong Kong and New
Delhi TMOs sent representatives in January 2005 to Kuala Lumpur, Malaysia for
the ABU-HFCC.

    The conferences take one working week. English is the main language of the
conference. The main purpose is to coordinate with frequency managers from
around the region to ensure there are no "collisions." A collision would be co-
channel interference. When they see what would be a collision in planning, they
talk about it and work out clear channels. The ABU host mediates, if necessary.
The meeting is for frequency coordination only and does not deal with jamming
issues.




OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   11 .

                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           IBB is a member of the ABU-HFCC, a regional group registered with the
       International Telecommunications Union (ITU), which is charged with approving
       schedules for international broadcast frequencies. According to EB/CIP, the ITU
       in Geneva, Switzerland, is the recognized entity that approves high frequency
       broadcast service for international broadcasting. If a regional broadcasting coordi-
       nation group (such as the HFCC) is acting on behalf of a government, it must be
       registered with the ITU as such.2 The United States uses the Federal Communica-
       tions Commission (FCC) as the notifying route for international broadcast usage,
       and the FCC communicates directly to the ITU on a seasonal basis. IBB schedules
       negotiated at the HFCC are routed through the FCC to the ITU. 3 According to
       EB/CIP, it is permissible to discuss and coordinate radio spectrum schedules as
       long as they come back through the FCC. The Department is not concerned that
       IBB coordinates radio frequency bandwidth schedules, so long as IBB does so
       within the protocol and no policy is involved. In short, OIG found that the use of
       TMO FSNs at the ABU-HFCC is an acceptable intergovernmental process that
       helps to avoid anarchy on high frequency radio bands under the regulation of the
       ITU.4




       2
        The ABU-HFCC is a legal entity registered as a regional coordination group with the ITU in Geneva.
       According to its web site, HFCC activity is not in conflict with the International Radio Regulations of
       the ITU. In fact, HFCC management procedures were researched by a task force of the ITU, which rec-
       ommended that HFCC's principles be incorporated into International Radio Regulations, which occurred
       during the 1997 World Radio Conference.
       3
        The FCC is the administrative agency charged with informing the ITU with respect to U.S. international
       broadcasting matters. The FCC has written authority from the Department of State to notify the ITU
       with respect to U.S. international broadcasting high frequency radio services.
       4
        ITU-Radio Rules of Procedure, Article 12, 12.10 § 9 specifically encourages "administrations [govern-
       ments] or broadcasters empowered to make changes to pursue a continual coordination process to re-
       solve incompatibilities at meetings (regional or worldwide, bilateral or multilateral) or by correspon-
       dence."



12 .                     OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                 MANAGEMENT CONTROLS



VOICE OF AMERICA NEWS BUREAU MANAGEMENT CONTROLS
   The administrative assistant at the VOA News Bureau has 20 years of U.S.
government experience of which 12 have been with the news bureau. She has a
major role in the preparation of the bureau's financial plan and prepares some
contracts. She has had adequate training from VOA and at the Bangkok Financial
Services Center to go with her experience. The administrative assistant comes
under the supervision of the bureau chief and her deputy, both of whom have
warrants, as does the chief of the Chinese branch.

    The administrative assistant, who is also the bureau's Class A Cashier with a
$5,000 accountability, consults with the VOA Financial Services Office as neces-
sary. Unfortunately, OIG discovered that monthly and quarterly reconciliations are
done by the bureau chief or her deputy only when the Class A Cashier requests
them. There are no unannounced cash counts. OIG counseled the bureau chief on
the reasons why reconciliations need to be initiated by management on an unan-
nounced basis in compliance with the IBB Manual of Operations and Administra-
tion.5 The VOA Bangkok Financial Liaison Office does the certifications of funds
availability and the Bangkok Financial Services Center at Embassy Bangkok sends
electronic funds transfer payments to vendors for three leased apartments and for
office space. Office space is paid with an annual payment to obtain a negotiated
better rate. Residential leases are paid annually. A serviced apartment is leased for
the rotational correspondents sent from VOA's Chinese Division as another cost
saving measure over temporary duty hotel costs.




5
 The IBB Manual of Operations and Administration, Part VII, Office of Budget and Finance, section 717.1a
Cash Verifications, states, "The cashier's fund is subject to unannounced verification at any time. Unan-
nounced cash verification must be made of each imprest fund not less frequently than once every three
months. Verification once a month is preferable. Unannounced cash verifications are made to ensure that
the imprest fund is fully accounted for."


OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005                     13 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           Adequate separation of duties exists in the bureau for procurement, receiving,
       and timekeeping. The administrative assistant, who is also the timekeeper, goes to
       the consulate every two weeks to key in time and attendance. Someone in the
       Chinese Branch does the administrative assistant's time and attendance and like-
       wise goes to the consulate to key it in.

           FSNs are hired through the Consulate General Hong Kong personnel office.
       Their pay and benefits are handled through the consulate. However, VOA Wash-
       ington makes payments to stringers directly.



       RADIO FREE ASIA NEWS BUREAU MANAGEMENT CONTROLS
            The administrative assistant who serves as the office manager for the RFA
       News Bureau in Hong Kong took up her duties in 1997. The office opened
       in1996. She uses and is well versed in the RFA Financial Procedures Manual. RFA
       in Washington wires money to the bank used by RFA Hong Kong, and the adminis-
       trative assistant then issues checks for things like the office lease. Salaries and
       stringer payments are paid directly from Washington into personal accounts. The
       office assistant formerly paid salaries, but since 2000 RFA pays them directly.
       Hong Kong labor law requires a penalty if payments are more than eight days
       overdue. However, payments are timely and are received within six or seven days.

            OIG observed the need to improve inventory procedures. As of February 1,
       2005, RFA eliminated the full time position encumbered by the regional technical
       support officer based in Hong Kong, the person who prepared the inventory. The
       last inventory was done in January 2005, just prior to the elimination of the posi-
       tion. Subsequent to the inspection, RFA informed OIG that the same person was
       converted to a consultant and would continue to prepare the inventory. OIG noted
       that the entry for a lost cell phone on the inventory did not indicate when the
       phone was lost. In its review, OIG noted that there was no system being used to
       note exceptions or to remove items from the inventory. Further, OIG noted that
       no one signs or certifies the inventory.


          Recommendation 2: Radio Free Asia should provide guidance to its Hong
          Kong bureau to improve inventory controls in the form of an administrative
          directive that would also apply to its other bureaus. (Action: RFA)




14 .                 OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    BBG informed OIG in comments to the draft of this report that RFA had
inventory and property control policies in place that had been provided previously
to all Asian offices. On May 20, 2005, RFA redistributed to all RFA Asian offices a
consolidated RFA Asian Inventory Policy.



REGIONAL TECHNICAL MONITORING OFFICE MANAGEMENT
CONTROLS
    With the exception of some minor inventory issues, there were no problems
discovered in management controls involving the TMO. Salaries for TMO staff are
taken care of from Washington by electronic funds transfer to Hong Kong staff.
The same is done for payments to contract monitors. The general services office at
Consulate General Hong Kong arranges for the lease of the office space as part of
the International Cooperative Administrative Support Services agreement. The
consulate's financial management office pays the lease annually. Shipping is done
by commercial international courier service in urgent cases or via diplomatic pouch.
IBB Washington sends the TMO senior supervisory monitor individual travel
orders. He then presents his travel authorization to the general services office for
tickets. The public affairs section seeks country clearance for them prior to their
travel. The TMO has experienced no problems in getting country clearance or
visas.

    The TMO sends its inventory to its supervisory office in Washington. The
TMO office needs to dispose of a lot of equipment. The last disposal was 10 years
ago. OIG advised the TMO staff that the disposal could be accomplished through
the general services office. The items are mostly obsolete receivers, computers,
and furniture. The TMO needs to dispose of them to free up limited office space.
The office, in a centrally located high-rise building separate from the consulate, is
relatively small at only 850 square feet.




OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   15 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




16 .     OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




             FORMAL RECOMMENDATIONS

Recommendation 1: Radio Free Asia should provide policy and procedural guid-
  ance to its Hong Kong bureau on handling walk-ins and make provisions to
  fund expenses staff may be expected to undertake on behalf of Radio Free Asia
  in the implementation of such guidance. (Action: RFA)

Recommendation 2: Radio Free Asia should provide guidance to its Hong Kong
  bureau to improve inventory controls in the form of an administrative directive
  that would also apply to its other bureaus. (Action: RFA)




OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   17 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




18 .     OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                       PRINCIPAL OFFICIALS

                                                        Name                              Arrival


VOA Asia Bureau Chief                                   Jennifer Janin                     05/00


VOA Hong Kong Editor                                    Kathleen Dawson                    10/01


VOA Senior Mandarin Correspondent                       Hai Yang Zhang                     08/04


RFA Chief Correspondent                                 James Zhu                          10/97


Technical Monitoring Office                             Danny Tong                         03/79
Senior Supervisory Monitor




OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005             19 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




20 .     OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                              ABBREVIATIONS

ABU                            Asia Pacific Broadcast Union
BBG                            Broadcasting Board of Governors
EB/CIP                         Bureau of Economic and Business Affairs,
                               International Communications and Information Policy
FCC                            Federal Communications Commission
FSN                            Foreign Service national
HFCC                           High Frequency Coordination Conference
IBB                            International Broadcasting Bureau
ITU                            International Telecommunications Union
LES                            Locally employed staff
OIG                            Office of Inspector General
RFA                            Radio Free Asia
TMO                            Technical Monitoring Office
VOA                            Voice of America




OIG Report No. ISP-IB-05-64, Inspection of the BBGs’ Operations in Hong Kong, Aug. 2005   21 .

                    SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
